March 25, 2021
ALD-131
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2935
HASAN SHAREEF, Appellant
VS.
JUDGE WILLIAM J.C. O’DONNELL; ET AL.
(W.D. Pa. Civ. No. 2:20-cv-00426)
Present:

MCKEE, GREENAWAY, JR. and BIBAS, Circuit Judges
Submitted are:
(1)

By the Clerk for a determination under 28 U.S.C. § 1915(e)(2) or for
possible summary action under Third Circuit L.A.R. 27.4 and I.O.P.
10.6;

(2)

Appellant’s “motion [sic] failure to state a claim upon which relief
may be granted,” treated as an argument in support of appeal; and

(3)

Appellant’s additional argument in support of appeal

in the above-captioned case.
Respectfully,
Clerk
ORDER
With this appeal, appellant Hasan Shareef timely seeks review of the District Court’s
judgment dismissing his civil rights suit. See Fed. R. App. P. 4(a)(4)(A)(iv); cf Banister
v. Davis. 140 S. Ct. 1698, 1708 (2020). We exercise jurisdiction under 28 U.S.C. § 1291.
The judgment is summarily affirmed because no substantial question is presented by this
appeal. See 3d Cir. L.A.R. 27.4 (2011); 3d Cir. I.O.P. 10.6 (2018). The District Court’s
res judicata, immunity, Monelk and leave-to-amend determinations are all error-free, for
substantially the reasons given in the Magistrate Judge’s report. See, e.g., Federated

Dep’t Stores v. Moitie. 452 U.S. 394, 398 (1981) (explaining that “[a] final judgment on
the merits of an action precludes the parties ... from relitigating issues that were or could
have been raised in that action”); Monell v. Dep’t of Soc. Servs. of City of New York,
436 U.S. 658, 691 (1978) (“[W]e conclude that a municipality cannot be held
liable solely because it employs a tortfeasor—or, in other words, a municipality cannot be
held liable under § 1983 on a respondeat superior theory.”); Stump v. Sparkman. 435
U.S. 349, 356-57 (1978) (holding that absolute immunity applies so long as the suit
against the defendant judge challenges a judicial act that was not taken in the “clear
absence of all jurisdiction”); Jablonski v. Pan Am. World Airways. Inc.. 863 F.2d 289,
292 (3d Cir. 1988) (explaining that “amendment of the complaint is futile if the
amendment will not cure the deficiency in the original complaint or if the amended
complaint cannot withstand a renewed motion to dismiss”).
By the Court,
s/Joseph A. Greenaway. Jr.
Circuit Judge
Dated: April 26, 2021
JK/cc: Hasan Shareef

20-2639

j

Hasan Shareef
#NU-0779
Forest SCI
P.O. Box 945
Marienville, PA 16239

Case 2:20-cv-00426-NR-LPL Document 29 Filed 08/12/20 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

No. 2:20-cv-426

HASAN SHAREEF,
Plaintiff
v.
JUDGE WILLIAM O'DONNELL, et al.
Defendants.

JUDGMENT

AND NOW, this 12th day of August, 2020, it is hereby
ORDERED that final judgment is entered in favor of
Defendants and against Plaintiff. The Clerk shall mark
this case CLOSED.
BY THE COURT:
/s/ J. Nicholas Ranian
United States District Judge
*

u •

t

20-2639

i

Hasan Shareef
#NU-0779
Forest SCI
P.O. Box 945
Marienville, PA 16239

/

7 Case 2:20-cv-00426-NR-LPL

Document 29 Filed 08/12/20 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

No. 2:20-cv-426

HASAN SHAREEF,
Plaintiff
v.

JUDGE WILLIAM O’DONNELL, et al.,
Defendants.

JUDGMENT

AND NOW, this 12th day of August, 2020, it is hereby
ORDERED that final judgment is entered in favor of
Defendants and against Plaintiff. The Clerk shall mark
this case CLOSED.
BY THE COURT:
/s/ J. Nicholas Ranjan
United States District Judge

Case 2:20-cv-00426-NR-LPL Document 28 Filed 08/12/20 Page 1 of 3

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

No. 2:20-cv-426

HASAN SHAREEF,
Plaintiff
v.
JUDGE WILLIAM O'DONNELL, et al,
Defendants.

MEMORANDUM ORDER
J. Nicholas Ranjan, United States District Judge
This is a pro se prisoner civil rights action pursuant
to 42 U.S.C. § 1983. This matter was referred to
Magistrate Judge Lisa Pupo Lenihan for proceedings in
accordance with the Magistrates Act, 28 U.S.C. § 636(b)(1),
and the Local Rules of Court applicable to Magistrate
Judges.
Currently before the Court is a Report &
Recommendation [ECF 20] filed by Judge Lenihan on July
14, 2020, recommending that the Court dismiss Mr.
Shareefs complaint based on res judicata, Eleventh
Amendment immunity, judicial immunity, and failure to
state a claim. The parties were notified that, pursuant to
28 U.S.C. § 636(b)(1), objections to the Report &
Recommendation were due by July 31, 2020. The Court
-1-

Case 2:20-cv-00426-NR-LPL Document 28 Filed 08/12/20 Page 2 of 3

subsequently received various filings from Mr. Shareef—a
letter on July 14, 2020 [ECF 21], a second letter on July 27,
2020 [ECF 22], a document entitled “Motion Failure to
State a Claim for Which Relief May be Granted” on July
27, 2020 [ECF 23], a third letter containing citations to
case law and other arguments on July 27, 2020 [ECF 24],
and a filing entitled “Permission to Appeal and Notice of
Appeal” on August 3, 2020 [ECF 25]. Mr, Shareef then filed
a notice of appeal to the Third Circuit on August 10, 2020.
[ECF 26] ’
The Court will collectively construe these filings as
Mr. Shareefs objections to Judge Lenihan’s Report &
Recommendation and, given Mr. Shareefs pro se status
and filings before the deadline, consider them all to be
timely. Pursuant to 28 U.S.C. § 636(b)(1)(C), this Court
must make a de novo determination of any portions of the
Report & Recommendation to which objections were made.
The Court may accept, reject, or modify, in whole or in part,
the findings or recommendations made by the magistrate
judge. The Court may also recommit the matter to the
magistrate judge with instructions.
The Court has carefully reviewed Mr. Shareefs
filings, many of which are difficult to interpret and appear
to expound upon many of the same allegations that he
made in his complaint. One thing, however, is clear—even
when construed liberally, the “objections” do not reveal any
legal basis for rejecting Judge Lenihan’s well-reasoned
conclusion that Mr. Shareefs claims are barred by the
combination of res judicata, Eleventh Amendment
immunity, judicial immunity, and the failure to identify a
“policy” or “custom” to support his claims against certain
police departments.
Thus, upon de novo review of the Report &
Recommendation and Mr. Shareefs objections thereto, the
following order is now entered.
AND NOW, this 12th day of August, 2020, it is
ORDERED that the Report & Recommendation [ECF 20]
is adopted as the opinion of the Court.
IT IS FURTHER ORDERED that Mr. Shareefs
complaint is dismissed pursuant to 28 U.S.C. §
-2-

Case 2:20-cv-00426-NR-LPL Document 28 Filed 08/12/20 Page 3 of 3

1915(E)(2)(B)(ii)-(iii) and 28 U.S.C. § 1915A(l)-(2). The
Court finds that amendment of Mr. Shareefs claims would
be futile, and so this dismissal is WITH PREJUDICE.
IT IS FURTHER ORDERED that, upon entry of
final judgment by the Court, the Clerk of Court mark this
case CLOSED.
Pursuant to Rule 4(a)(1) of the Federal Rules of
Appellate Procedure, Mr. Shareef has thirty (30) days from
the date of this order to file a notice of appeal as provided
by Rule 3 of the Federal Rules of Appellate Procedure.
DATED this 12th day of August, 2020.
BY THE COURT:
/s/ J. Nicholas Ranjan
United States District Judge

\
\

-3-

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 1 of 15

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

HASAN SHAREEF,
Plaintiff,
v.
JUDGE WILLIAM O’DONNELL,
OFFICER BRIAN PALKO, DA
TERRY SCHULTZ, CO
WALTEMIRE, CAPTAIN MOORE,
SGT. BLUMMING, WARDEN
SNEDEN, MICHAEL SCUILLO,
JEFFRETY KENGERSKI, MARK
BOWMAN, MARK BATISER,
STATE POLICE IN BUTLER,
CAPTAIN ZENTS, SGT. WAGNER,
SGT. WATIMERE, WARDEN
DEMORE, ASST. WARDEN
FEMALE,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No. 20-426
District Judge J. Nicholas Ranjan
Magistrate Judge Lisa Pupo Lenihan

)
)
)
)
)
)
)
)
)
)

REPORT AND RECOMMENDATION
I.

RECOMMENDATION

1

For the following reasons, it is respectfully recommended that Plaintiff s Complaint (ECF
N0S- 4; 4_i & 4-2) be dismissed with prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) & (iii)
and 28 U.S.C. § 1915A(b)(l) & (2).
H.

REPORT
Plaintiff Hasan Shareef (“Plaintiff’) is a state prisoner currently in the custody of the

Pennsylvania Department of Corrections and confined at SCI-Forest. He initiated this action by
1

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 2 of 15

filing a Motion for Leave to Proceed in forma pauperis, which was granted on April 3, 2020.
(ECF Nos. 1 & 3.) His Complaint, filed pursuant to 42 U.S.C. § 1983, was docketed that same
day. (ECF No. 4.) On April 30, 2020, Plaintiff moved to voluntarily withdraw this case. (ECF
No. 10.) As a result, the case was closed by Order dated May 1, 2020. (ECF No. 11.) On May
13, 2020, however, Plaintiff moved to reopen this case. (EF No. 12.) Said motion was granted
and the case was reopened on May 15, 2020. (ECF No. 13.) Upon review, the undersigned now
recommends that this case be dismissed with prejudice pursuant to the screening provisions of
the Prison Litigation Reform Act.
A. The Prison Litigation Reform Act
The Prison Litigation Reform Act (“PLRA”), Pub.L. No. 104-134, §§ 801-810, 110 Stat.
1321-66 to 1321-77 (April 26, 1996), requires a district court to review a complaint in a civil
action in which a prisoner is proceeding in forma pauperis (28 U.S.C. § 1915(e)(2)) or seeks
redress against a governmental employee or entity (28 U.S.C. § 1915A). The Court is required
to identify cognizable claims and to sua sponte dismiss any claim that is frivolous, malicious,
fails to state a claim upon which relief may be granted, or seeks monetary relief from a defendant
who is immune from such relief. See 28 U.S.C. §§ 1915(e)(2)(B) and 1915A(b). This action is
subject to sua sponte screening for dismissal under both 28 U.S.C. §§ 1915(e)(2) and 1915A
because Plaintiff is a prisoner proceeding in forma pauperis and seeking redress from
governmental officers or employees.
B. Standard of Review
The legal standard for dismissing a complaint for failure to state a claim pursuant to §
1915(e)(2)(B)(ii) or § 1915A(b)(l) is identical to the legal standard used when ruling on a
Motion to Dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6). See Tourscher v.

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 3 of 15

McCullough, 184 F.3d 236, 240 (3d Cir. 1999). However, before dismissing a complaint or
claims for failure to state a claim upon which relief may be granted pursuant to the screening
provisions of 28 U.S.C. §§ 1915 and 1915A, a court must grant the plaintiff leave to amend his
complaint, unless amendment would be inequitable or futile. See Grayson v. Mayview State
Hosp.. 293 F.3d 103, 113-14 (3d Cir. 2002).
In reviewing a pro se plaintiff s complaint, the court must accept all factual allegations in
the complaint as true and take them in the light most favorable to the pro se plaintiff. See
Erickson v. Pardus, 551 U.S. 89, 93-94 (2007); Phillips v. County of Allegheny, 515 F.3d 224,
234-35 (3d Cir. 2008). A complaint must be dismissed if it does not allege “enough facts to state
a claim to relief that is plausible on its face.” Bell Atlantic Copx v. Twombly, 550 U.S. 554, 570
(2007). “Factual allegations must be enough to raise a right to relief above a speculative level.
Id. at 555. The court need not accept inferences drawn by the plaintiff if they are unsupported by
I

the facts as set forth in the complaint. See California Pub. Employee Ret. Sys. v. The Chubb
Corp., 394 F.3d 126, 143 (3d Cir. 2004) (citing Morse v. Lower Merion School Dist., 132 F.3d
902, 906 (3d Cir. 1997)). Nor must the court accept legal conclusions set forth as factual

£ allegations. Roll Atlantic Corn., 550 U.S. at 555 (citing Papasan v. Allajn, 478 U.S. 265, 286
(1986)). Additionally, a civil rights claim “must contain specific allegations of fact which
indicate a deprivation of constitutional rights; allegations which are nothing more than broad,
/pj simple and conclusory statements are insufficient to state a claim under § 1983. ” Alfaro Motors,
U

Inc, v. Ward. 814 F.2d 883, 887 (2d Cir. 1987).
Finally, a court must employ less stringent standards when considering pro se pleadings
than when judging the work product of an attorney. Haines v. Kemer, 404 U.S. 519, 520 (1972).
When presented with a pro se complaint, the court should construe the complaint liberally and
3

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 4 of 15

draw fair inferences from what is not alleged as well as from what is alleged. Dluhos v;
Strasberg, 321 F.3d 365, 369 (3d Cir. 2003). In a section 1983 action, the court must “apply the
applicable law, irrespective of whether the pro se litigant has mentioned it by name. Higgins v.
Beyer. 293 F.3d 683, 688 (3d Cir. 2002) (quoting Holley v. Dep’t of Veteran Affairs, 165 F.3d
244, 247-48 (3d Cir. 1999)). See also Nami v. Fauver. 82 F.3d 63, 65 (3d Cir. 1996) (“Since this
is a § 1983 action, the [pro se] plaintiffs are entitled to relief if their complaint sufficiently
alleges deprivation of any right secured by the Constitution.”) (citing Holder v. City of
Allentown. 987 F.2d 188, 194 (3d Cir. 1993)). Notwithstanding this liberality,

se litigants

are not relieved of their obligation to allege sufficient facts to support a cognizable legal claim.
See, e.g., Tavlor v. Books A Million. Inc.. 296 F.3d 376, 378 (5th Cir. 2002); Riddle v,
Mondragon. 83 F.3d 1197, 1202 (10th Cir. 1996).
C. Discussion
The allegations in Plaintiffs Complaint are difficult to comprehend, but it appears that
Plaintiff complains primarily of four things: (1) that he was not brought in front of the same
magistrate judge who issued the warrant for his arrest in May 2016, (2) that he was subjected to a
false arrest on May 27, 2016,1 (3) that he was subjected to a malicious prosecution by the Butler

1 Plaintiffs docket sheet for his criminal case confirms that he was arrested on May 27, 2016.
See Commonwealth v. Shareef, MJ-50305-CR-338-2016. The docket sheet, which is a public
record that is accessible online, reveals that he was charged with four counts of Intentional
Possession of a Controlled Substance by a Person Not Registered; three counts of Manufacture,
Delivery, or Possession with Intent to Manufacture or Deliver; and one count each of Possession
of a Firearm Prohibited, Use/Possession of Drug Paraphernalia, and Dealing in Proceeds of
Unlawful Activity with the Intent to Promote. All charges were held over and sent to the Butler
County Court of Common Pleas to proceed at docket number CP-10-CR-1714-2016. The docket
sheet for that case reveals that Plaintiff pled guilty to one count of Manufacture, Delivery, or
Possession with Intent to Manufacture or Deliver and he was found guilty of one count of
Possession of a Firearm Prohibited. On December 20, 2018, he was sentenced to a term of
incarceration of four-and-a-half to nine years.

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 5 of 15

County District Attorney’s Office, and (4) that his property was confiscated and destroyed when
he was processed into the Butler County Prison on August 20, 2018. See, generally, (ECF Nos.
4, 4-1 & 4-2.)
1. Res judicata
Plaintiff has previously filed cases in this Court complaining of issues identical to those
com plained of in his current Complaint. “Public policy dictates that there be an end of litigation,
that those parties who have contested an issue be bound by the result of the contest; and that
matters once tried shall be considered forever settled as between the parties.” Baldwins
/ Traveling Men’s Assn.. 283 U.S. 522, 525 (1931). In this regard, “[a] fundamental precept of
common- law adjudication, embodied in the related doctrines of collateral estoppel and res
and directly determined by a court
judicata, is that a ‘right, question or fact distinctly put in issue
i
of competent jurisdiction ... cannot be disputed in a subsequent suit between the same parties or
their privies.

Montana vfflnited States. 440 U.S. 147, 153 (1979) (quoting Southern Pacific R,

Cn. v. United States. 168 U.S. 1,48-49 (1897)). “To preclude parties from contesting matters
that they have had a full and fair opportunity to litigate protects their adversaries from the
expense and vexation attending multiple lawsuits, conserves judicial resources, and fosters
reliance on judicial action by minimizing the possibility of inconsistent decisions.” Id-, 440 U.S.
at 153-54; see also Allen v. McCurry, 449 U.S. 90, 94 (1980); Parklane Hosiery Co. v. Shore,
439 U.S. 322, 326(1979).
Pursuant to the. doctrine of res judicata, a final judgment on the merits bars further claims
by parties or their privies based on the same cause of action. Id. at 153 (citing Cromwell v.

Q)

Countv of Sac. 94 U.S. 351, 352 (1877)). Additionally, “res judicata bars not only claims that
were brought in a previous action, but also claims that could have been brought. In_re

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 6 of 15

Mullarkev. 536 F.3d 215, 225 (3d Cir. 2008); see also Parkview Assocs. P’ship v. City of
Lebanon. 225 F.3d 321, 329 n.2 (3d Cir. 2000) {res judicata “prohibits reexamination not only of
matters actually decided in the prior case, but also those that the parties might have, but did not,
assert in that action^”) It applies where there is “(1) a final judgment on the merits in a prior suit
V
involving (2) the same parties or their privies and (3) a subsequent suit based on the same cause
of action.” Tn re Mullarkev. 536 F.3d at 225. Although res judicata is an affirmative defense for
a defendant to plead, “dismissal for failure to state a claim may be appropriate when it is
obvious, either from the face of the pleading or from other court records, that an affirmative
defense such as res judicata will necessarily defeat the claim.” Taylor v. Visinsky, 534 F. App x
110, 112 (3d Cir. 2013) /citing Jones v. Bock, 549 U.S. 199, 215 (2007)).
a. Confiscation and Destruction of Property
This suit is not Plaintiffs first complaining about the confiscation and destruction of his
property when he was processed into the Butler County Prison. In Civil Action No. 18-1494,
Plaintiff alleged that certain officers and employees at the Butler County Prison, including
Defendants Capt. Moore, Warden Demore, Assistant Warden Female, Sgt. Blumming, Capt.
Zents, Sgt. Wagner, Warden Sneden, Michael Scuillo, Jeffrey Kengerski, Mark Bowman and
Maj. Batiser, confiscated and destroyed his property when he was processed into the Butler
County Prison on August 20, 2018. The Court construed Plaintiffs allegations concerning his
property as attempting to assert a claim for the denial of due process and access to courts, found
that he had failed to state either a due process or access to courts claim and dismissed them with
prejudice.
All three requirements for res judicata are found here. Plaintiff has asserted claims
against eleven of the, same Defendants named in Civil Action No. 18-1494 based on their

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 7 of 15

involvement in confiscating and destroying his property when he was processed into the Butler
County Prison on August 20, 2018, and the Court’s Order dismissing those claims for failure to
state a claim upon which relief can be granted constitutes a “final judgment on the merits for the
purposes of res judicata. See Federated Dept. Stores, Inc, v. Moitie, 452 U.S. 394, 399 n.3
(1981) (“The dismissal for failure to state a claim under Federal Rule of Civil Procedure 12(b)(6)
is a ‘judgment on the merits’” for purposes of res judicata.). Therefore, under res judicata, the
final judgment in Civil Action No. 18-1494 precludes and bars Plaintiff from relitigating any and
all claims related to his property that either were litigated and decided or should have been raised
and litigated in Civil Action No. 18-1494.
b. False Arrest
This is also not Plaintiff s first suit alleging that his arrest by Officer Brian Palko on May
27, 2016 was unconstitutional. In Civil Action 18-1494, Plaintiff asserted the same false arrest
claim against Officer Palko, which the Court found to be time-barred under the two-year statute
of limitations and dismissed it with prejudice for Plaintiff s failure to state a claim. As such,
under res judicata, the final judgment in Civil Action No. 18-1494 also precludes and bars
Plaintiff from relitigating any claims against Officer Palko stemming from his arrest.
c. Malicious Prosecution
Like the aforementioned claims brought against the officers and employees of the Butler
County Prison and against Officer Brian Palko, this is also not the first suit that Plaintiff has
brought against Terry Schultz, who Plaintiff identifies as the District Attorney of Butler County.2
In Civil Action No. 19-1330, Plaintiff alleged that Defendant Schultz maliciously prosecuted

2 According to the docket sheet for Plaintiffs criminal case, Defendant Schultz was the Assistant
District Attorney of Butler County who was involved in prosecuting Plaintiffs criminal case.

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 8 of 15

him, but, pursuant to the screening provisions of the Prison Litigation Reform Act, his claim
against Defendant Schultz was dismissed with prejudice based on the doctrine of prosecutorial
immunity. The requirements for res judicata are also present here. Plaintiff has again asserted a
malicious prosecution claim against Defendant Schultz based on his involvement in prosecuting
the same criminal case that was at issue in Civil Action 19-1330,3 and, even though the
Complaint in that case was dismissed pursuant to the screening provisions of the Prison
Litigation Reform Act, the Court’s Order dismissing that claim constitutes a “final judgment on
the merits” for purposes of res judicata. See, eg., Cieszkowska v. Gray Line New York, 295
F.3d 204 (2d Cir. 2002) (giving res judicata effect to a prior suit which had been dismissed
under 28 U.S.C. § 1915(e)(2)(B)(ii) for failure to state a claim upon which relief could be
granted and hence barring a second suit which the District Court dismissed for failure to state a
claim pursuant to 28 U.S.C. § 1915(e)(2) because the complaint was barred by res judicata”).
Therefore, under res judicata, the final judgment in Civil Action No. 19-1330 precludes and bars
Plaintiff from relitigating any and all claims against Defendant Schultz related to his prosecution
of Plaintiff s criminal case that either were litigated and decided or should have been raised and
litigated in Civil Action No. 19-1330.

o$c(l

'm

2i Defendants CO Waltemire and Sgt. Watimere
It is not clear from the Complaint whether CO Waltemire and Sgt. Watimere are the same
person, although it is likely that they are. At times Plaintiff uses their titles interchangeably and
their names are inconsistently spelled throughout his Complaint. However, it is clear that this
&

defendant, or both defendants, was an employee of the Butler County Prison and that Plaintiff is ^
3 Commonwealth v. Shareef. CP-10-CR-1714-2016 (Butler Cty. Ct. of Comm. Pleas)/ X

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 9 of 15

attempting to assert the same claims against him as those asserted with respect to his property in
Civil Action 18-1494. It even appears that Plaintiff may have intended this/these individual(s) to

\1

be a defendant in Civil Action 18-1494, but they were not listed in the caption of his complaint
in that case. Since this/these defendant(s) was/were not a party or parties to Civil Action 181494, the traditional doctrine of res judicata would normally not apply. However, the Third

5%^

Circuit has held that res judicata applies when a plaintiff has “asserted essentially the same claim
against different defendants where there is a close-or significant relationship between successive
defendants/’ T .nhrizol Coro, v. Exxon Com,, 929 F.2d 960, 966 (3d Cir. 1991) (citing Gambpcz
v.

Yelencsics, 468 F.2d 837 (3d Cir. 1971)). Moreover, “a lesser degree of privity is required for

a new defendant to benefit from claim preclusion than for a plaintiff to bind a new defendant m a
later action.” Id. at 966. (citing Bruszewski v. United States, 181 F.2d 419, 422 (3d Cir. 1950)
(“[Wjhere. . . res judicata is invoked against a plaintiff who has twice asserted essentially the
same claim against different defendants, courts have ... enlarged the area of res judicata beyond
any definable categories of privity between the defendants.”)); see also Marrmv. Marran, 376
F.3d 143, 151 (3d Cir. 2004) (“Privity is merely a word used to say that the relationship between
one who is a party on the record and another is close enough to include that other within the res
judicata.”) (internal quotation marks and citations omitted).
Indeed, in Gambocz. the plaintiff brought an action against several alleged conspirators.
Following the dismissal of the action with prejudice, the plaintiff brought a second action
nam ing additional defendants who allegedly participated in the same conspiracy. Apart from
on
naming different defendants, the material facts of the two actions were identical. Relying
Bruszewski. the court held that res judicata barred the second action even as to those defendants
who were not parties to the first action. It held that “res judicata may be invoked against a
9

1

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 10 of 15

plaintiff who has previously asserted essentially the same claim against different defendants
where there is a close or significant relationship between successive defendants.” Gambocz, 468
F.2d at 841. It found that where the first action alleged the existence of a conspiracy involving
certain individuals and
the sole material change in the later suit is the addition of certain defendants,
some of whom had been named in the original complaint as participating in the
conspiracy but had not been named as parties defendant at that time . . . the
relationship of the additional parties to the second complaint was so close to
parties to the first that the second complaint was merely a repetition of the first
cause of action and, therefore it is barred by the application of [res judicata].
Id. at 842. In the Third Circuit, this is sometimes referred to as “Bruszewski doctrine”. See, id.
In this case, Defendants CO Waltemire and Sgt. Watimere (assuming they are two
different individuals) are closely related to the Butler County Prison defendants named in Civil
Action 18-1494. Indeed, they were employed at the Butler County Prison at the time of the
alleged violation, and, according to Plaintiff, they were allegedly involved in the same violation
com plained of in Civil Action No. 18-1494. For purposes of the res judicata assessment, the
undersigned considers this a sufficiently “close” relationship. See, e.g., Spencer v. Varano, 3:17cv-2158, 2019 WL 384959, at *3 (M.D. Pa. Jan. 30, 2019) (for purposes of res judicata, finding
defendant who was an official at the Columbia County Prison to be in a “close” relationship with
other defendants who were also officials at the Columbia County Prison and had been sued
before for the same claim based on the same allegations); Spencer v. Courtier, No. C.A. No. 09124E, 2011 WL 2670198, at *7 n.5 (W.D. Pa. May 23, 2011) (finding a “close or significant
relationship” between defendants who were employees of the Department of Corrections based
on allegation that they “worked in conjunction” with each other to place him in the SMU); see
also Gambrell v. Hess, 777 F. Supp. 375, 381-82 (D.N.J. Feb. 14, 1991). Accordingly, res
&
10

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 11 of 15

judicata bars this suit against Defendants CO Waltemire and Sgt. Watimere, as well, since any
other ruling “would reward litigants who failed, intentionally or not, to include all relevant
parties in [an] action and would permit two (or possibly many more) attempts to try the same
cause of action.” Williams v. City of Allentown, 25 F.Supp.2d 599, 604 (E.D. Pa. Nov. 18,
1998).
Alternatively, the undersigned would recommend dismissal of the claims against
Defendants CO Waltemire and Sgt. Watimere for the same reasons that they were dismissed for
failure to state a claim in Civil Action No. 18-1494.
3. Defendant Judge William O’Donnell
Although Plaintiff has previously sued a number of judges who were involved in his
criminal case out of Butler County, including Judges Fullerton, McCune, and Doerr, this is the
first action in which Plaintiff has sued Judge William O’Donnell. The Court should take judicial
notice that Judge O’Donnell is a judge of Magisterial District Court 50-3-01, which is an entity
of the Unified Judicial System of Pennsylvania. See 42 Pa. C.S.A. § 301(9).
To the extent Plaintiff has sued Judge O’Donnell in his official capacity, the Eleventh
Amendment bars suit against him. In this regard, “a suit against a state official in his or her
official capacity is not a suit against the official but rather is a suit against the official’s office.
As such, it is no different from a suit against the State itself.” Will v. Mich. Dep’t of State
Police, 491 U.S. 58, 71 (1989) (internal citation omitted). Here, a claim against Judge
O’Donnell in his official capacity is really a claim against the court over which he presides;
which is an entity of the Commonwealth of Pennsylvania. See Callahan v. City of Philadelphia,
207 F.3d 668, 672 (3d Cir. 2000) (“All courts and agencies of the unified judicial system .. . are
part of ‘Commonwealth government’ and thus are state rather than local agencies.”); see also
11

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 12 of 15

Benn v. First Judicial Dist. of Pa.. 426 F.3d 233, 241 (3d Cir. 2005) (holding that the First
Judicial District was a state entity and thus entitled to Eleventh Amendment immunity). As
such, any claim against him in his official capacity is no different than a claim against the
Commonwealth of Pennsylvania.
The Eleventh Amendment, however, bars civil rights suits against a State in federal court
by private parties where the State has not consented to such action. Laskaris v. Thornburgh, 661
F.2d 23, 25 (3d Cir. 1981) (citing Alabama v. Pugh. 438 U.S. 781 (1978)). In fact, it is subject to
only three exceptions: (1) congressional abrogation, (2) state waiver, and (3) suits against
individual state officers for prospective relief to end an ongoing violation of federal law under
F.x narte Young. 209 U.S. 123, 159-60 (1908). MCI Telecommunication Corp. v. Bell Atlantic
Pennsylvania. 271 F.3d 491, 503 (3d Cir. 2001).
No exceptions to Eleventh Amendment immunity are applicable here. Congress has not
expressly abrogated Pennsylvania’s Eleventh Amendment immunity from civil rights suits for
damages. See, e.g., Will 491 U.S. at 66 (“Section 1983 provides a federal forum to remedy
many deprivations of civil liberties, but it does not provide a federal forum for litigants who seek
a remedy against a State for alleged deprivations of civil liberties.”); Quern v. Jordan, 440 U.S.
332, 341 (1979); Bovkin v. Bloomsburg Univ. of Pa., 893 F. Supp. 378 (M.D. Pa. 1995) (holding
that States’ immunity has not been abrogated for actions brought under §§ 1981, 1983, 1985, and
1986), affd, 91 F.3d 122 (3d Cir. 1996). Additionally, by statute, the Commonwealth of
Pennsylvania has specifically withheld its consent to be sued. See 42 Pa. C.S.A. § 8521(b) ; 1 Pa.
C.S.A. § 2310; see also Laskaris. 661 F.2d at 25. Finally, the Ex parte Young exception does not
apply because Plaintiff has not alleged an ongoing violation of federal law and he does not seek

12

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 13 of 15

purely prospective relief. As such, Judge O’Donnell is entitled to Eleventh Amendment
immunity to the extent he is sued in his official capacity.
Additionally, to the extent Judge O’Donnell is sued in his individual capacity, he is
entitled to absolute immunity from civil liability pursuant to the doctrine of judicial immunity,
which “is founded upon the premise that a judge, in performing his or her judicial duties, should
be free to act upon his or her convictions without threat of suit for damages.” Figueroav.
Blackburn. 208 F.3d 435, 440 (3d Cir. 2000) (citing Bradley v. Fisher, 80 U.S. 335, 347 (1872)).
Indeed, a judge’s immunity from civil liability is overcome in only two situations: (1) for actions
not taken in the judge’s judicial capacity, and (2) though judicial in nature, for actions taken in
the complete absence of all jurisdiction. Id- (citing Mireles v. Waco, 502 U.S. 9, 11-12 (1991)). ^
Plaintiffs allegations against Judge O’Donnell, however, do not give rise to either situation.
Accordingly, Judge O’Donnell is also entitled to absolute judicial immunity.
4. Defendant State Police of Butler
Finally, Plaintiff has sued the State Police of Butler. First, it is noted that the “State
Police of Butler” is not an entity that exists, and it is unclear whether Plaintiff actually intended
to sue the Pennsylvania State Police, the Butler County Sherriff s Office or the Police
Department for the City of Butler.4
To the extent Plaintiff intended to state a claim against the Pennsylvania State Police, it is
protected by Eleventh Amendment immunity for the same reasons stated above with respect to
‘

Judge O’Donnell, see, e.g., Luck v. Mount Airy No. 1, LLC, 901 F.Supp.2d 547, 558 (M.D. Pa.
Oct. 4, 2012), and no exceptions to Eleventh Amendment immunity are applicable here. To the
4 Based on Plaintiffs criminal docket and the record in Civil Action 18-1494, where Plaintiff
raised a false arrest claim against Officer Brian Palko, it appears that Plaintiff may have intended
to sue the State Police of Pennsylvania as Brian Palko appears to be a State Police Trooper.
13

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 14 of 15

extent Plaintiff instead intended to state a claim against the Butler County Sherriff s Office or the
Police Department for the City of Butler, it is treated as a claim against Butler County and the
City of Butler, respectively. See, e.g., Colburn v. Upper Darby Township, 838 F.2d 663, 671 n.7
(3d Cir. 1988) (treating Upper Darby Township and Upper Darby Police Department as one
entity). However, the Supreme Court’s jurisprudence “require[s] a plaintiff seeking to impose
liability on a municipality under § 1983 to identify a municipal ‘policy’ or custom that caused
the plaintiffs injury.” Bd. of Countv Com’rs of Brvan County v. Brown, 520 U.S. 397, 403
(1997) (citing Monell v. Department of Social Services of City of New York, 436 U.S. 658, 694
(1978)). This requires a plaintiff to showthat “through its deliberate conduct, the municipality
was the ‘moving force’ behind the injury alleged.” Id. at 404 (emphasis in original). In this
case, however, Plaintiff failed to allege any action by the “State Police of Butler”, let alone
“deliberate conduct” that would show that Butler County or the City of Butler was the “moving
force” behind Plaintiffs alleged injuries. Accordingly, any claim against them is subject to
dismissal for failure to state a claim upon which relief can be granted.
D. Amendment of Complaint
The court must allow amendment by the plaintiff in a civil rights case brought under §
1983 before dismissing for failure to state a claim, irrespective of whether it is requested, unless
doing so would be “inequitable or futile.” Fletcher-Harlee Corp. v. Pote Concrete Contractors,
Inc.. 482 F.3d 247, 251 (3d Cir. 2007); see also Alston v. Parker, 363 F.3d 229, 235 (3d Cir.
2004) (asserting that where a complaint is vulnerable to dismissal pursuant to 12(b)(6), the
district court must offer the opportunity to amend unless it would be inequitable or futile). The
undersigned is cognizant of these holdings but finds that allowing for amendment by Plaintiff
would be futile.
14

Case 2:20-cv-00426-LPL Document 20 Filed 07/14/20 Page 15 of 15

III.

CONCLUSION
For the following reasons, it is respectfully recommended that Plaintiffs Complaint (ECF

Nos. 4, 4-1 & 4-2) be dismissed with prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) & (iii)
and 28 U.S.C. § 1.915A(b)(l) & (2).
In accordance with the applicable provisions of the Magistrate Judges Act, 28 U.S.C. §
636(b)(l)(B)&(C), and Rule 72.D.2 of the Local Rules of Court, the parties shall have fourteen
(14) days from the date of the service of this report and recommendation to file written
objections thereto. Any party opposing such objections shall have fourteen (14) days from the
date on which the objections are served to file its response. A party’s failure to file timely
objections will constitute a waiver of that party’ s appellate rights.
Dated: July 14, 2020.

Lisa Pupo Lenihan
United States Magistrate Judge

Cc:

Hasan Shareef
NU-0779
SCI Forest
P.O. Box 307
Marienville, PA 16239

15

-

Jr-' NVSV:i

3fn ®[je Superior Court of ^ernmplbatua
WESTERN DISTRICT
SUPERIOR COURT DOCKET NO.: 815 WDA 2019
TRIAL COURT DOCKET No: CP-10-CR-0001714-2016

COMMONWEALTH OF PENNSYLVANIA
Appellee
VS
HASAN SHAREEF

Appellant
APPELLANT’S BRIEF
AND REPRODUCED RECORD
s

Appeal from the Order of Court dated December 20,2018
in the Court of Common Pleas of Butler County, Pennsylvania

Armand R. Cingolani, III, Esquire
Supreme Court I.D. No. 72767
CINGOLANI & CINGOLANI
Attorney for Appellant
Armand R. Cingolani, III, Esquire
Supreme Court I.D. No. 72767
300 North McKean Street
Butler, Pa. 16001
724-283-0653

Z'j j

i- t-J hi Hi

;

• - ;,V:lr NV^Vrl

tsJ .r ‘

STATEMENT OF THE CASE

This case began on May 27th 2016 when the Appellant was detained and arrested in an
attic where he was found with guns and drugs and money at the same time the State Police were
executing a search warrant granted on the acts of others. By coincidence Appellant just
happened to be there. The Appellant was a convicted felon so he ran afoul of the Statute holding
such persons are not to own or possess weapons, 18 Pa. C.S.A. §6105 , a felony 2. He was
convicted of 35 Pa. C.S.A. §780 -112(a) (30), possession with intent to deliver, a felony.
Over time the defendant was appointed various public defenders. Discovery was
provided. Omnibus Pre-trial hearings were Finally held. Prior to trial the defendant was released
after pleading to another charge in another county. To avoid the present trial he entered a
rehabilitation center and was picked up on a bench warrant and detained in Allegheny County.
When Appellant was returned by Sherriffs to Butler County the DOC destroyed or quarantined
his case law paperwork because it was covered in a substance that burned the eyes of DOC
employees.
The Appellant was tried before a jury in late December of 2018 and convicted of intent to
deliver and former felon not to own weapons. He complained he lost the trial because the DOC
withheld his papers so he did not have his case law notes which he calls evidence due to his
fj

attorney not calling the warden & DOC employees to testify to admit they were lying about the
cause of withholding his papers. If they had testified they lied, he would have won his case.
This timely appeal followed.

. .

C'J ii i u i i*

_

:.. *:»

- • - MVH:?. MVSVH

■ o;.

y.tj

SUMMARY OF THE ARGUMENT

The Appellant was searched and seized in his own separate location without a warrant
The Appellant was convicted in error when the Court and Jury concluded that he
possessed weapons Appellant claims he did not own, in his space, merely because his genetics
were on the surface.
The Appellant lost his trial because the Court and his counsel failed to ensure the jail
//

either returned his cases/ evidence or required reconstruction of his cases/ evidence.

s

k

.

?-i

wi

: j

!ivhj

mvsvh

x.U

ARGUMENT

From the moment Hasan Shareef heard the police knocking on the door of the apartment
house nothing has happened as he thought it should. As far as he was concerned he never should
have been arrested, charged, tried and convicted. He still can’t understand how he ended up in
the wrong place and at the wrong time. When the police came to the door the Appellant was
inexplicably in the attic. He never explained why he was there. When the police started
knocking on the door, even though he claims he was doing nothing wrong, he tried to break open
the tiny attic window to get out of the house and escape by racing off the roof. He maintained
the story the police did not knock and announce, but rushed in and rushed up the steps and

a

detained him before he could escape. Escape is neither evidence nor proof of guilt or
criminality. Commonwealth v. Phillips. Pa.Sunerior Court. 1427 WDA 2014. When he was
captured, he was covered in blood, he advises, as a result from glass cuts. Some blood got on the
guns and other objects. The spray of blood did not cause him to be the owner of the surprising
array of gunnery and contraband which did not belong to him and for which he had no
knowledge or explanation about how these inculpatory objects appeared coincidentally in the
same location as he was embarrassed to be found,
ISSUE ONE: Whether a warrant was required to search and seize this particular person
and the baggage in his separate attic room.
The Appellant claimed the police just broke in. He claimed he did not hear them knock
and announce. The police must knock and announce. Wilson v. Arkansas. 514 U.S. 927 (1995),

U

f. : ' ats:

- ■ tiV.ir :iv~'v.i ''-'..i iO

hut see. Hudson v. Michigan. 547 U.S. 586 (2006). It was permissible for the police to wait a
few seconds after knocking before entering to execute the search warrant.
Correlation in time and place of Appellant with contraband is not enough circumstance to
establish proof of guilt beyond a reasonable doubt that he was a felon not to be in possession of a
gun.
Further, Appellant argues that he Was not aware of guns and drugs and money in the
same location as he was. He did not see it. The police fabricated these facts and lied. While
there may have been guns and drugs and money in the attic with him, these things were not in
plain sight but hidden in closed baggage. Sometimes it’s his baggage; sometimes the baggage
must belong to an unknown stranger. It depends. The police just fabricated the visuals that they
saw these things sticking out of bags. Then, because his blood somehow got splattered on these
objects, the police falsely concluded they must be his possessions, especially the guns and drugs.
The Appellant avers the Court erred in failing to properly instruct the jury on what constitutes
^

constructive possession. The Court should have instructed the jury that the police had to prove
he actually owned the money, drugs and guns.
Worse, the police detained him and searched his separate attic room without a

©

warrant and without his consent. May be they had a warrant to search the rest of the house, but
they did not have a warrant to search and enter this attic room. In the Ybarra v. Illinois. 444 U.S.
85 (1979) it was not permissible to search a person on the premises of an authorized search but in
Michigan v. Summers. 452 U.S. 692 (1981) a limited intrusion on a detained person on site was
permissible. See also. U.S. v. Banks. 540 U.S. 31 (2003) which defines the proper exigency time
$

to enter to avoid a drug dealer disposing of his contraband.

u

miiUi.

: .. **;t

. .'IVH'?' MVSV’H

Y.*J

'a.

Search and seizure of a person at in a residence is perse unreasonable. Coolidee
v. New Hampshire, 403 U.S. 443(1971).
The Appellant challenges the sufficiency of the warrant as to him in the attic because
when the PSP applied for the warrant it was to search for fruits of the burglary committed by the
-iftwo boys. Therefore the warrant failed to comply the particularity requirement of the Fourth
Amendment so the search of his attic location must be unconstitutional. Massachusetts v.
Sheppard. 468 U.S. 981, 988 n.5 (1984).
This is a story about how things that you don’t even know are happening off stage can
leap from the background and grab you up without you even realizing until it is too late. The
story began when the Appellant, Hasan Shareef, a man with felony convictions, was granted
permission to stay at a three story house at the edge of town by Sarah Snodgrass, soon to be
deceased. Sarah has also granted two other men, both coincidentally named Christopher with
surnames of Anthony and Snyder, permission to stay at the same apartment house she was
renting from a landlord who was probably completely unaware of her generosity. The two
Christophers imagine they are both smarter than they are and better burglars that later events
would actually indicate. Anyway, these two started rolling the snowball downhill when they
burglarized Crescent Bay Marine to steal boat motors and then tried to sell the fruits of their
crime to West Penn Marine sales. The sales desk agent at West Penn was suspicious and called
the police.
After interrogation, the two Christophers revealed they were staying at Sarah Snodgrassrental apartment at 1004 E. Jefferson Street, Butler PA. The PSP obtain a warrant to search the
house to find missing parts at the place. Snyder advised a character named “Red” used the attic ^

(o

?"»

:

;;d

• • >|VH:< NVPVH

Kb

and sells drugs from there, according to the probable cause statement in incident report
involving the two Christophers, Pa. 160 240358 on 5/27/2016. Two warrants were obtained to
search 1004 E. Jefferson Street, Apt. 2 and a 2009 Chevrolet Silverado driven by the two
Christophers but owned by Sarah Snodgrass. These warrants were approved by the on call
Magistrate William S. O’Donnell. The Appellant will later claim he was denied due process by
not being brought before Magistrate William S. O’Donnell and by claiming the warrant is a fraud
with a forged signature. The Magistrate William S. O’Donnell swears he signed the warrant.
PSP advised Butler City Police will assist as this is a known drug house with a reputation
for being a place where drug addicts regularly overdose.
When they tried to enter a locked house, Appellant Hasan Shareef tried to escape out a
tiny window in the attic. His attempt failed but he was injured and was bleeding. The authorities
observed the Appellant is in the location and possession of an entire dealer’s panoply of guns,drugs and money. The PSP obtain a warrant Pa -16- 248429 to secure legal search rights in this
interesting presentation of contraband. The money found under Pa. warrant 16 248429 on Hasan
Shareef was buy money from a drug deal in Clarion.
In incident Pa 17-203053 in April 18,2016 PSP related that the guns found with Hasan
Shareef were taken from a residence at 339 Dick Ed. Franklin Twp. Butler County Pa. being the
Intratec-22 and the Bond Arms Defender. These guns had been stolen from the family by their
friend Christopher Anthony. The police believe Anthony was a runner for Hasan Shareef. In yet
another incident Pa. - 18- 200009 Amanda Brommer admitted she bought the Texas Defender
along with 4 other guns for Hasan Shareef.
The Defendant interrupted the District Attorney’s opening to fire his own counsel. (T.24)

b.

:

*

‘

HVHS Mv;?YH .Vi; r.‘, y.

PSP Trooper Palko explained he went to 1004 E. Jefferson with a warrant, in order to
investigate items taking in the burglary would be found at the residence as the burglars reported
they stayed there. (T.30-31 -) In clearing the house he heard glass breaking above him. When
he ascended the flight of stairs in plain view he saw a gun and the Appellant. (T.32)
Once the Appellant was in custody they saw a gun sticking out of a black bag, and a
glassine bag of heroin in plain view. (T.33) They secured a warrant and they found more drugs,
guns and $2,570 in currency wrapped in rubber band. They found another gun behind a couch.
(T.36, T.39)
On cross examination, PSP Palko revealed he was investigating a burglary of boat motors
and he was after two boys with the first name of Christopher. (T.44) It was by chance that the
Appellant was caught up in their investigation when they searched the residence. (T.45-46)
After indicating the presence of others on the property Counsel elucidated the fact that
neither the gun is titled and therefore not title owned by the Appellant. (T.49)
The officer observed that the Appellant was bloody and injured in trying to escape from a
small black window. (T.49)
The Appellant verbally denied ownership of the guns as well (T.50)
On direct examination the blood expert Biondi, admitted there was no blood on the Band
Arms Defender or the other gun nor were there finger prints. (T.51-59)
The DNA expert Kukosky testified DNA from three individuals showed up on the
weapon. (T.71) one sample from Appellant showed up on the TEC pistol (p.74)

• •-

mv'h:?

MVf'VH • •

y.h-

The expert Kukosky admitted on cross examination that his examination does not prove
ownership or how long someone touched a gun nor does he know how DNA got on the gun (T.77-78) Appellant advises DNA or fingerprints alone do not prove ownership or possession. A
being may touch another’s property to see what it is or to satisfy curiosity.
The ADA introduced the Appellants prior convictions for possession with intent to
deliver into the record (T.81- 82) To prove a felon may not possess or own weapons the
prosecution must prove the Appellant had a certified record of prior felony convictions.
The Appellant fired his counsel. (T. 98-101)
The Appellant holds that his room was searched without his consent and PSP Palko
averred he could search the room because he had a warrant (T. 105)
The Appellant disagrees with the witness version of his events, so he posed his questions
to contradict and discredit the trooper’s testimony. In his artful questions Appellant tries to get
the trooper to admit:
He had no consent to search the attic. (T. 105)
That the search was unrelated to guns and drugs. (T.l 05)
That neither warrant was adequate to search and seize either guns, money or drugs.
(T.105)
That there was no warrant for DNA. (T.l06)
That trooper planted DNA on guns. (T.106)
That the cell phone was not Appellant’s. (T.106)

\

a.

.V'M

. : MVrkT

mvsvh

r.b ;.*• cr.

ISSUE THREE: Appellant was denied due process because the jail withheld or destroyed
his papers full of legal cases which Appellant claims is exculpatory evidence and the Court
erred in not requiring the jail to provide the papers to Appellant for trial.
Finally, the Appellant avers a manifest injustice occurred because the warden and the jail
destroyed or withheld his evidence which, because he did not have this evidence to exculpate
himself at trial, through their either willful destruction of his evidence or their refusal to provide
his evidence for use at trial which caused him to lose the trial because he could not produce the
evidence at trial. The Court refused to allow Appellant to have his papers/ evidence given to him
by the DOC & jail. (T.87, T.100) As aresult he was denied due process.
The Appellant lost his evidence because he took it with him when he had Court in
another County and was released. He decided to avoid the current trial by checking into a
rehabilitation facility in Pittsburgh and was later picked up and detained in Allegheny County.
When he was returned to Butler County his papers were checked by D.O.C. employees.
Inspection caused the examiners to get dizzy and ill as they were laced with some drug such as
fentanyl so the papers were quarantined and were therefore not available for him so they said.
The evidence Appellant relief upon was his multipage, handwritten, jumble of cases from
a pot pourri ofjurisdictions. Appellant looks upon his magical lists of cases as if they are
essential to abolishing his legal woes. He believes cases are evidence. Appellant holds that
counsel was ineffective in not obtaining the paperwork containing his cases, if withheld by the
warden, or in not reconstructing them if they were destroyed by the warden.
Appellant required counsel to demand a hearing for release of his papers. Appellant
thought counsel should require the warden and his deputies to testify. Appellant believed if they

a* ?«:•. : r. :,u

• - • HVH:' MV:?VH

K‘j.

were forced to testify they would admit they maliciously withheld Appellant’s papers/ evidence
just to frustrate his defense.
Appellant in a Pro-Se brief asserted “My lawyer Cingolani never called warden down
Bowman or any other CO who said this was true. 1 lost my trial because CO took all my law
work, denied access to court, and violated my right to due process.” Appellant related j ail
personal took his law work, legal notes and research saying it was contraband because
employees of the DOC began to experience burning and irritated skin and burning of the eyes so
the warden refused to give back to Appellant’s papers and another deputy said the papers were
destroyed. Still, it is in the domain of the Superior Court to determine whether counsel erred in
not calling the warden or deputy to testify at a hearing as to why they quarantined or destroyed
Appellant’s trial papers. Did counsel’s failure to call the warden and his deputy to testify cause
the trial court to not require the Appellant to have his papers at trial, and since he did not have
his papers he could not prove his innocence or rebut the Commonwealth’s evidence with his case
law and therefore lost his case through no fault of Appellant’s own and solely at the fault of
Appellant’s counsel? Appellant urges the Court to accept his personal version of the “for want
of a nail in a horseshoe”, due to his counsel’s ineffectiveness the shoe was lost, the horse slipped,
the knight fell and the kingdom was lost” proverb to prove Appellant deserves a remand.
Appellant requests a new trial and new counsel because he was denied due process where the
D.O.C. withheld his papers of legal cases which he calls evidence. Appellant urges this Court to
hold the lower Court erred in refusing to order the jail to give Appellant his papers for his
defense.

i)

1 Y.

?"i H v. v. r ■! ’.

: ■-•>1

- - ■ HVH:'. MVt'V'H •»;. Ki

That Police dogs sniffed false positives for drugs. (T.107)
That the house was surrounded searching for another person. (T.108)
That he was in handcuff custody too long. (T.109)
That seeing him flee is not a crime. (T. 109, 111)
That there was nothing on him when he fled. (T. 111)
The Appellant asserted his frustration and the magnitude of the harm he suffered because
property was destroyed in jail because it was alleged to be covered with fentanyl dust and so he
was denied the opportunity to produce exculpatory evidence and argument. (T.l 15)
The Court erred in allowing the PSP to obtain his DNA and to allow the PSP and
forensics people to check the strange weapon for DNA without his permission of consent. DNA
is a sacred bodily fluid which can only be obtained by penetrating his mouth or flesh.
ISSUE TWO: There is no proof Appellant owned the guns found in the same location.
Since blood splattered on these objects, that does not prove the Appellant, a felon
Possessed a weapon in violation of 18 Pa. C.S.A. §6105. Even if his fingerprints or DNA was
found on any weapon that is not sufficient to prove he actually possessed or owned the weapons.
Touch alone is not ownership.

i

a

t.

''

•■-.MV'HS UVPVH

Yb ;.■■■ Y.Y.

CONCLUSION
WHEREFORE, given the proceeding arguments, the relief requested is reversal of the
verdict of the jury and a remand for a new trial.

Respectfully submitted,

Armand R. Cingolani,JII
Attorney for Appellant /

''

HS.Bi.jl:'.

IN THE COURT OF COMMON PLEAS OF BUTLER COUNTY, PENNSYLVANIA

COMMON WEALTH OF PENNSYLVANIA

-

C.A. NO.: 1714-2016
O
Cj

r-o

."3

G?a>

m,

r-

nm

a
m
n

rv>

fn

rcj-

-C o
Id
-r -t.

2?

Oo —

VS.
0=3

HASAN SHAREEF

10 DAY POST SENTENCE MOTIONS

esa

-y Ci —
_Nj—- CM
rtfTS^S-

i2U->

‘-.O

-nc::
rHa

CXL

r'j

-T-

AND NOW COMES the Defendant, Hasan Shareef, by and through his attorneys,
C1NG0LANI & CINGOLANI, per Armand R. Cingolani, III, files the following: 10 Day Post
Sentence Motions
Pursuant to Pa. Crim. Pro. Rule 720 a written post sentence motion shah be filed
1.
later than 10 days after imposition of sentence. The Defendant was sentenced on December
no
20,2018.
2.

The Defendant requests a motion for Judgment of Acquittal or a Motion for a

New Trial or a Motion to Modify Sentence.
Several Omnibus Motions for the Defendant were filed prior to appointed counsel
3.
of Armand R. Cingolani HI. His prior counsel’s at the time filed but they were denied, as
untimely filed. This is not the Defendant’s fault as he had counsel and counsel knew the rules

a

u

and Defendant should not be prejudged by the counsel’s failure to file. If Defendant had an
Omnibus hearing he would have been able to timely object to several i ssues and probably had the
charges dismissesd.

4.

Defendant intended to object to the fact that District Justice William O’Donnell

signed the warrant but the District Justice did not hear the case. The magistrate issuing the
warrant or signing the case must hear the case. Under Pa.Crim. Pro.Rule 117, the President
Judge must guarantee sufficient issuing authorities to provide services to the Defendant, to
ensure service of warrants and preliminary arraignments and bail. The Defendant was denied a
hearing before the impartial Magistrate William O’Donnell who set his case, but he was forced
to have his case heard before District Judge William Fullerton although the jurisdiction was
!

probably with Kevin O’Donnell. This error violates the rules as William O’Donnell issued the
case and the address of the property to be searched was East Jefferson St, which should be in the
city of Butler. All of these irregularities violate Pa. Crim. Pro. Rule 130. B.T. Fullerton should
have been the issuing Magistrate but he was not.
Although Pa. Crim. Pro.Rule 130 seems to say any authority can hear a case it
5.
should be heard in the jurisdiction where it occurred by that magistrate. This is confirmed by

I

Pa.Crim. Pro. Rule 131 whereby proceedings should be heard in the jurisdiction where they
occurred. Therefore the charges should be thrown out for violating the rules.
6.

if

No warrant was issued to arrest the Defendant in the.house where he was arrested.

The police broke into the house without knocking and bounded up the stairs to the attic. There
was no reason to go up to the attic to search and seize the Defendant as he was just present and ■
not a threat.

' /

While it is true that Defendant broke a tiny window in the attic and cut his hand,
7.
supposedly in a peculiar claim of escape (although the window appears to be too small to enable
a grown man to escape) that is not a probable cause to arrest him as escaping or running away
are not grounds to justify an arrest.
No warrant was issued to arrest the Defendant in the first place so there is aprima
8.
^ facie violation of Pa.Crim. Pro. Rule 205, contents of a search warrant.

9.

The police violated Pa. Crim. Pro. Rule 207 manner of entry in premises. They ;

just burst in without giving the Defendant a chance to enter the door, This violated his
citizenship rights under the 4th and 5th Amendments so the charges must be dismissed.

10.

Pa.Crim. Pro. Rule 513 was violated because there was no arrest with a prior

warrant based in probable cause.
11.

i

The Defendant was denied his rights to have an Omnibus Pretrial hearing under

Pa.Crim. Pro. Rule 581. The Defendant was denied a hearing because his counsel at the time did
not file timely for a hearing, but that is ineffective assistance of counsel and while his counsel

ftJ

may be punished, this denial wrongfully prejudices the Defendant who requested an Omnibus
Motion from all counsels. If the evidence has been suppressed, then the charges would have
been dismissed and the Defendant could not be convicted at trial. An Omnibus hearing would
have shown the Defendant could not be connected to the evidence against him, that the weapons
and drugs were not his and that the police improperly searched his closed bags and containers
without a warrant in violations of his rights.

u

\

12.

The Defendant was denied a timely trial having been held in jail in an excess of a

year pursuant to Pa.Crim. Pro. Rule 600. The charges should have been dismissed.

13.

Under Pa.Crim. Pro. Rule 606 the Defendant challenges the sufficiency of the

evidence by to motion for acquittal by this paragraph within 10 days of the trial.
14.

The evidence, improperly obtained, was not in any case sufficient to convict the

Defendant. The fact that guns and drugs were in the vicinity of Defendant in a home use by
many criminals does not prove that the Defendant owned or controlled the drugs and weapons by
mere presence with guns and drugs is not sufficient to prove the Defendant owned or controlled
the weapons.
15.

Under Pa. Crim. Pro. Rule 607 the Defendant challenges the weight of the

evidence and requests a new trial. Neither the testimony of the officers nor the lab report

conclusively lead tlie jury to conclude the Defendant had ownership or possession or control of
guns and drugs. The lab report did not prove the guns and drugs were his. The testimony of the
officers just bolstered the belief that because guns and drugs were present in a room with

D

Defendant that they must be his guns and drugs; This is a Post Hoc Propter Hoc argument, an
assumption that the conclusion proves the premises which are not justified or proven true.

The

officers merely restated their beliefs.

C/gl

The Defendant was denied his paperwork to prepare for trial because it was sequestered
16.
by the j ail. He therefore could not properly prepare for trial because he was denied access to his
case notes. As a result his winning plans turned into the defeat.
The Defendant was denied a fair trial because the jury discriminated against on the basis
17.
of his race. For example a juror declared his fear of Defendant and expressed fear that
Defendant would hunt him down.
18.

The Defendant was denied the opportunity by the Court to ask questions of the experts

and the police.

1

The Court and the prosecutor objected to questions the Defendant wished to ask and the
19.
Court refused to let the Defendant ask the questions his own way. The Defendant was denied the
opportunity to present competent evidence. Competent evidence was excluded.
20.

A

W

The Defendant had prepared questions for the witnesses and the police and the District

Attorney but since the papers were locked up the Defendant could not reconstruct his case. And
so he was denied the right to participate in his trial.

W 121.
22.

The Court did not properly instruct jury on what constitutes constructive possession.
Evidence was not considered at trial by lawyer or Judge McCune that Captain Moore and

Warden Conspired and took the Defendants legal law work needed to defend himself in trial in
violation of Defendants Eighth and Fourteenth Amendment Rights.

fi

23.

Outside range of professional competence evidence was excluded.

24.

Defendant’s Counsel, committed misconduct in that evidence was admitted without

proper defense or objection.
;

I 2S-

False arrest not going in front of Magistrate District Judge who issue warrant..

I 2«-

Admitting incompetent evidence and excluding competence evidence errors in

\

Admission.
27.

Defense counsel failed to subpoena Warden and Captain Moore in pretrial hearing and

then again at trial to submit to cross examination about why they withheld or destroyed

{
}

Defendant’s evidence and trial preparation notes. Defendant believes they deliberately withheld
or destroyed his trial papers.

28.

Defendant objects that the court and defense counsel did not properly instruct jury about

witness testimony lab reports and admissibility of evidence.

29.

Counsel did not put motion as evidence for jury.

30.

Need evidentiary hearing see if this true.

31.

Prior counsel Cuebas did not put motion suppress the gun.

f 32.

Pokice Maliciously and without probable cause procured criminal complaint against

Defendant in violation of his fourth and fifth Amendment right against illegal search and seizure.

4|

33-

Conviction was by fraud or pejury or other undue means

34.'

Defendant’s counsel erred in failing to demurrer to the charges at trial and therefore

demurrers in this post-trial motions.
35.

The Defendant complains counsel did not argue the error complained of by appellant

were prejudicial of his substantial rights to receive a fair and impartial trial because the verdict
was palpably against evidence. Further counsel failed in not putting in due process hearing, and
untimely filing for motion of suppression evidence and failing to file Motion to Reconsider
Denial of Prior Motions.

WHEREFORE, the relief respectfully requested is reversal of the charges and a new
trial.

Respectfully Submitted,

Armand R. Cingolani If

/

Michael Slupe,
Chairman
Sheriff

PRISON BOARli OF INSPECTORS

Kimberly Geyer
Courtly Commissioner

Richard Goldinger,
Vice Chairman
District A Homey

Kevin Boozel
County Commissioner

Benjamin Holland,
Secretary
Controller

joe DeMore, warden C.J.M, C.C.E

To:

Date;
Re:

Leslie Osche
Gutniy Commissioner

Judge Timothy
McCune
Court of Common Pleas

Hasaan SHAREEF
June 10,2019
Property

Mr. SHAREEF,
1 spoke with your father who is willing to take your property. I am willing to mail it at no cost
to. You simply have to send me a signed release of property form which I have sent you twice
previously. You have responded to me by mail blit tailed to send the required form. Please do
so immediately.

■■

feC

Beau Sneddon
Deputy Warden of Operations

WQei':2 pry 1 .-‘I 4 C.7V HASAV f-i-IAKi^F

; "v

i

CESGOLANI & CENGOLANI
300 North McKean Street
Butler, Pennsylvania 16001;

ARMAND R. CINGOLAM (1904-1983)
ARMAND R. CINGOLANL1R. (1929-2004)
ARMAND R. CINGOLAM, m .

OFFICE: 724-283-0653
FAX: 724-283-2439
EMAIL: arcine3@gmail.com

November 26,2018
Hasan Shareef
Butler County Prison
202 S. Washington Street
Butler, PA. 16001
Re: Return of Property

Dear Hasan,

Enclosed is a copy of the response of your returned property. As I suspected, and as I
have been saying all along, your property made the captain and processing officer ill when
processing your property. Therefore it was placed in a large black bag for safe keeping until
your depart the locked gates that keep you.

______________

Becauseofthe chemiCarsubstance thatappearstobe on your property I have declined to
have your personal belongings signed over to me for safe keeping. I am not in business to store
client’s personalprogerty
So I guess at this time you will have to trust that your stuff is locked away for safe
keeping and you will get it when you released.
Respectfully,

Armand R. Cingolani III
ARC/rlc
/
l

i

1

IN THE COURT OF COMMON PLEAS
BUTLER COUNTY, PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA : CRIMINAL DIVISION
VS
C.A. 1714 OF 2016
HASAN SHAREFF
FOR THE COMMONWEALTH: Terri Schultz, ADA
FOR THE DEFENDANT: Stand-by Counsel Annand Cingolani, m, Esquire

ORDER OF COURT
NOW, this 22nd day of October, 2018, the Defendant has made a decision
to proceed with the remainder of the trial without representation. Attorney Cingolani will
remain as part of the trial as stand-by counsel. He shall be available to provide advice to
the Defendant but will not be doing the questioning of any witnesses. The attorney will
not be presenting any closing argument for the Defendant.
BY THE COURT,
J.
TIMOTHY F. McCUNE, judge

o
o
cr

72

-fCD

2
<=>

rn

r~

ro

ooED

TJ

C30£r

o5
~rip

03 CO -

3®^

___ —f

w

m

CO

c/>-

/

re ■
■

—a

n-tc

PT</> —i
O.
fv.’

butler county prison

Inmate Name^

a

\

i

rw

Inmate Grievance Form
/
BCP#
^.Housing P|>d_iZ

U

mi

O ~ f t \ i:
> r

Specific Remedy you are

Cell

vr>_^

Time

Date

■O m

Ly

'/ffi V^aWr

Date and Time of Alleged Incident
Describe your grievance. Be specific.

^Daeii

^

W»

-^.'i

f.n

/

v,u5n~\

Qppkmg

vrAwe^

PffYs ,\ r\(yfl
(

psi^
(Continue on Back if Necessary)

(feiVS>T ; ^CQxoAjU

Inmate Signature:

natp Rprpived //- ?Q I (r. Grievance #
Grievance Officer

Date

Inmate does not write beldpv this line

Grievance Officer
/ 7 3 Q— Forwarded to

C

/m f/2- £

^

Signature
1st Level Response

t&rtbyejSntt
(Continue oni Attachment if Necessary)

Name

^vteMire-

Date

Signature

2nd Level Response

£

&
ss

(Continue on Attachment If Necessary)

Name

(Continue on Attachment if Necessary)

Deputy Warden

BCP 13 Q

Signature
3rd Level Response/Appeal

Signature

Date

✓
/
/
:

IN THE COURT OF COMMON PLEAS OF BUTLER COUNTY,
PENNSYLVANIA
CRIMINAL DIVISION

COMMONWEALTH

CP-10-CR-0001714-2016
CP-10-CR-0000592-2018

vs
Hasan Shareef

OttDF.R OF COURT
AND NOW, this 26th day of November, 2018, the Defendant s Motion for
Return of Property is granted. The property may be returned to the Defendant’s attorney
or other designee as long as the inmate executes an authorization provided by the Butler
County Prison.
BY THE COURT,

Timothy/fe McCune
Judge ^
i

MCC
DA^ ^

o
O

c:

55 -.rj

/

f ~

De'RAtty
FHc-f )
Other

013
-nr:
on
o'^-J

'2ZZT

• “ ;— o.
j ill—

co
~c

rv>

_o
ICO
O'-

— ir»

CO
■•

/
m

rr>

552
n
O o:—
>

°2c
n
i n co —i
-13
."'J

>

to

on
F~

7
/

M%
IN THE COURT OF COMMON PLEAS OF BUTLER COUNTY, pennsylva
%%
)

)

COMMONWEALTH

CRIMINAL DIVISION

)
)
)
)
)
)
)

vs
Hasan Shareef

-O

CP-10-CR-0001714-2016
CP-10-CR-0000592-2018

iP
u1

RESPONSE TO MOTION FOR RETURN OF PROPERTY
AND NOW comes the County of Butler and Butler County Prison, by and through
their counsel, Julie M: Graham, Esquire,

Solicitor for the . County of Butler, and in

support of the within Response to Motion for Return of Property , avers as follows:

1.

On September 25, 2018, Attorney Armand R. Cingolani, III, attorney for
Inmate.Hasan Shareef, filed a Motion for Return of Property.
Defendant’s Motion on November 1, 2018. The

2.

A hearing was held on

3.

By Order of Court dated November 1, 2018, the Prison WdS directed to
respond to the allegations made in the Motion for Return of Property within

copy of the Motion for Return of
Movant, Hasan Shareef, did not serve a
the Butler County Prison (the “Prison”), nor did he notify the
Property on
2018.
Prison of the hearing scheduled on or about November 1

30 days of the Order of Court.
4.

On August 14, 2018, immediately prior to inmate Hasan Shareefs move
from the Allegheny County Jail to the Prison six Prison employees were
unknown substance, resulting in those six employees being
exposed to an
transferred to Butler Memorial Hospital for treatment. The Prison was
During the
placed on lockdown status pending an investigation.
investigation, the unknown substance was discovered to be K2, a

synthetic cannabinoid. While the exposure method remains unknown it is
believed that this substance was infiltrated into the Prison via inmate mail
or personal effects.
Shareef was transported to the Prison
On August 20, 2018, inmate Hasan
Captain Clyde Moore and Corrections
from the Allegheny County Jail.
Shareef into the facility
Officer Mark Bowman processed inmate Hasan
While searching inmate Hasan
and started to search his property.
employees reported "they began to experience
Shareefs property, both
burning and irritated skin and burning eyes." These symptoms were
similar to the symptoms the six prior employees experienced on August

5.

14, 2018‘when they were

transported to Butler Memorial Hospital.

secure black garbage bag
Captain Clyde Moore sealed the property iin a
office for when inmate
and placed the sealed property bag in his secure
Captain Moore’s and
Hasan Shareef would be released from the Prison.
subsided to where medical
Correction Officer Bowman’s symptoms
treatment was not required. At that time, Captain Moore explained to

6.

Shareef his property was deemed bio-hazard and to contac
inmate Hasan
in any legal work to the facility. The incident reports
his attorney to send in
Officer Bowman on this issue are
of Captain Moore and Correction
and marked Exhibits A and B,
attached hereto, incorporated herein
respectively.
7.

On August 29,

2018 the Pennsylvania Department of Corrections ( DOC )

extended lockdown to combat
placed the entire state prison system on an
of DOC employees becoming sick while being
the numerous number
•unknown substance." Multiple policy changes were
exposed to an
inmate mail being sent off site and
enacted for the DOC varying from
photocopied, legal mail opening practices, etc.

8.

, Warden DeMore spoke with inmate
During the week of September 16-20
Shareef about his property. The Warden explained to inmate
Hasan
-3-

I shareef that there were concerns

his property was contaminated and was

site for when he was released from
deemed bio-hazard but was stored onWarden, Joe DeMore, reaffirmed that Captain Moore
the Prison custody
Shareef to have his attorney send any pertinent legal
told inmate Hasan
Warden DeMore explained in detail that the jail could
mail to the facility
be tested for K2 which would
have sent his bagged up property out to
result in all his property being deemed bio-hazard and oonsequentiy oould
Inmate Hasan Shareef
be destroyed by the haz-mat team/testing agency
for not sending his property out to be tested and
thanked Warden DeMore
said he understood.
9.

October 3, 2018 from inmate Hasan
A letter was sent to the Prison on
, Armand Cingolarii, regarding inmate Hasan Shareefs
Shareefs attorney
On October 4, 2018 at approximately 1155 hours, Deputy
property.
Warden Beau Sneddon. ("D,W: Sneddon") spoke to Attorney Cingolani on

the

telephone about inmate Hasan Shareefs property. Attorney Cingolani

indicated he was

“under the impression inmate Hasan Shareefs property

D.W. Sneddon offered Attorney Cingolani the
was destroyed or lost."
option of having inmate Hasan Shareef sign a release of property form
and that Attorney Cingolani oould take possession of his client's property.
Copies of the two Prison Incident
Attorney Cingolani refused this option.
Reports filed by D.W. Sneddon documenting this issue are attached
hereto, incorporated herein and marked Exhibits C and D, respectively. ,
10.

and difficulties of identifying synthetic
Based on the above information
cannabinoids on property, papeiwork, etc. with the naked eye as well as
detection tools, the Prison administration made the decision to mark
bio-hazard and to have it securely
inmate Hasan Shareefs property as t
returned to the inmate upon his release from Prison custody.
stored and
effort to communicate with
The Prison administration has made every
inmate Hasan Shareef and his attorney to get any needed copies of legal
material back in his hands through his attorney as
-4-

well as having inmate

/"

Hasan Shareef sign a property form releasing his property to his attorney

1

Armand Cingolani. Safety is paramount and the Prison Administration’s
decision was based solely on keeping all the employees and inmates of
the Prison safe by not re-opening inmate Hasan Shareef s property risking
contamination to any employees or inmates.
11.

In light of the safety issues and risks associated with the return of the
Inmate's property, the Prison Administration intends to hold his property in
a safe and secure, location unless or until the time of his release and/or
transfer at which point it will be returned to him following appropriate
safety protocols.

12.

Alternatively, the Prison Administration’s previously made proposal that
the inmate execute an authorization for release of this property to his
attorney or other designee remains open.

13.

The Prison has broad discretion in establishing policies and procedures
relative to the handling of inmate property to preserve and protect the
safety of inmates and correctional officers. The course of action identified
herein is within the guidelines established by the Pennsylvania Supreme
Court in, O’Toole v. Pennsylvania Department of Corrections, --- A. 3d.--(2018), 2018 W.L. 4998392.

By:

A(S
QSP. iV
i (d

Julie/ML Graham
ButlenCounty Solicitor
124 West Diamond Street
P.O.Box 1208
Butler, PA 16003-1208
Telephone No. (724) 284-5100
Fax No. (724)284-5400
PA I.D. No. 36483

Date: November 20. 2018
-5-

BUTLER COUNTY PRISON
f

INCIDENT REPORT
Reporting Officer
Incident DaleTime:

MOORE, CLYDE

08/20/2018 17:00

Location Type

PROCESSING

Incident Type

INFORMATIONAL

. Location of the Incident:

Employees Involved
Inmates Involved
Name
Inmate #

Name

031505

SHAREEF JR, HASAN AL

SCUILLO, MICHAEL
BOWMAN,’MARK
KENGERSKI, JEFFREY

On 8/20/2018. Butler County Prison received ^
commitments, all property was placed int0
£ new commitments, Hasan Shareef began asking about his
Sheriffs Deputies were taking the transport gear
and knows jie is to receive his
paperwork, and property. Inmate :Shareef hasbeeninquire about his property during the
property after it has been properly searched. Inm
property belonging to inmate Shareef, my right arm,

Narrative

sssss:

n"a>"",

5S XSKSSSS?- 'I- - * m* »»* -* “«*

t,u

OFFICER NAME PRINT:

DATE:.

----

TIME:.

Q - Z.<J -C £>

a 9/ 9

OFFICER NAME SIGN:_
ADMINISTRATION:

DATE AND TIME:.

I r._

s

/

exhibit
S'

3
03/29/2018 09:19
163 MOORE

$:

.

Page: 1

I

BUTLER COUNTY PRISON
'

INCIDENT REPORT
Reporting Officer
Incident DateTime:

BOWMAN, MARK

Q8/20/2018 13:45

Location Type

PROCESSING

Incident Type

INFORMATIONAL

PROCESSING

Location of the Incident:

Employees Involved

Inmates Involved
Name

Inmate U

Name

031505

SHAREEF JR, HASAN AL

All Shareef was committed to the BCP. This officer
was

Narrative

CapL Clyde Moore on S/21/2018 and he was commenting on having similar symptoms after handling
Shareefs property. No further incident to report.
Respectfully Submitted,
C/O Mark Bowman

DATE:.

g-az-\%

OFFICER NAME PRINT:

//*'

TIME:.

OFFICER NAME SIGN:.

DATE AND TIME:

ADMINISTRATION:^__

I!
EXHIBIT
3

111 BOWMAN

08/23/2018 08:29

Ia
s

Page: 1

i

BUTLER COUNTY PRISON
INCIDENT REPORT
SNEDDON, BEAU

Reporting Officer
Incident DateTime:

-JO/04/2018 11:55

Location of the Incident:

Location Type
Incident Type

Employees Involved

Inmates Involved
Inmate U

Name

031505

SHAREEF Jr, HASAN ALI

Narrative

On Thursday, October

Name

nueSonfadlisedCINGALONI that if inmate SHAREEF was willing to sign a release of property form,

interest in taking possession of the property.

Beau Sneddon
Deputy Warden of Operations

uiv^
3.1'/

cj.0*

DATE:. i<i-U-iS
OFFICER NAME PRINT:
TIME:.

OFFICER NAME SIGN.:_

csto

DATE AND TIME:.

ADMINISTRATION:.

0
EXHIBIT
lit.
3
195 SNEDDON

10/04/2018 15:09

a

Page: 1.

*9*

BUTLER COUNTY PRISON
I

INCIDENT REPORT
Incident DateTime:
Location Type

i q/04/201 8

09:15

BUTLER COUNTY
PRISON

Reporting Officer

SNEDDON. BEAU

Location of the Incident:

Incident Type

Employees Involved

Inmates Involved
Name

Inmate #

Name

031505

SHAREEF JR. HASAN AL

Narrative

On Thursday. October 4. 2018 at approximately 0915 I attempted to contact Attorney Armand Cingolani in regards
to some motions to the court in reference to property belonging to Inmate Hasan SHAREEF I was advised by the
female that answered the phone and did not identify herself that Cingolani was not in the office . The female took
my contact information and stated that she would have Cingolani call me back.

Beau Sneddon
Deputy Warden of Operations

tf4
V6

iLh

DATE:.

OFFICER NAME PRINT:

Si

•Q -U

TIME:

OFFICER NAME SIGN:.

DATE AND TIME:

ADMINISTRATION:.

Ia
EXHIBIT

IIjj'
195 SNEDDON

10/04/2018 09:29

i3 f:
i

'

Page: 1

VERIFICATION
I, the undersigned, state that I am the Warden of the Butler County Prison; that
I
the attached Response to Motion for Return of Property is based upon facts which
have personal knowledge of and that the facts set forth in the foregoing are true and
correct to best of my knowledge, information and belief,

I understand that the

statements herein are made subject to the penalties of 18 Pa. C.S. § 4904 relating to
unsworn falsification to authorities.
\

JoeDeMor^, Warden, Butler County Prison

r

CERTIFICATE OF SERVICE
I, Julie M. Graham, hereby certify that I served a true and correct copy of the
foregoing Praecipe for Entry of Appearance in the above-captioned matter by First
Class, U.S. Mail to the following on this 20th day of November, 2018:
Armand R. Cingolani, III, Esquire
Cingolani & Cingolani
300 North McKean Street
Butler, PA 16001
Richard A. Goldinger, Esquire
Butler County District Attorney
Third Floor, County Government Center
124 West Diamond Street
P.O. Box 1208
Butler, PA 16003

>

Julie M Graharfi,
Butlgp^ounty Solicitor

Iv$ -pe. CooeAs qP ccmn-^o yl-epP
qpeq. efe^&^'nn^/K/Rn'
^
■LED
...Wffl ffiE

* 2oiedi^-°icw r-AH
/—v

l

9: 15

■ aJ|tNMiW”>

' O

k,\fb-Ci?''0'
-J

ce-

V^S

Lp- \Q-Cp- PfX 2ffl»‘

,-X

\

iC

r-'.

-°e<2.T'

\J'

\ \"

Vf& PaP

\S*

■.a

*
vT
awA
vxe^
PyPIU epedP
Hj3
QjS'PA(2e.A

soW q

ce^>yv^'f0e. TAudPp
iS'

£-~*- ©•.

\46a-0 <\\

YV\CaV CJp^VcpVJ VN.00££#-

^VXc^ \oo^

Ofr ^\\o.'^
IVjAcoP v"5
A

-\

Vod^

Aei jtA-

-VO:

_ \\\. ^eVA^-AvS.

qoM o^
ccoV- CAJcAy- PW® r-\kj^vw\VC^^Vio'^

v-p 5H
-\HS
oA 5fc.w>
Ufo ^

°(Ag_ ^kvq'cl oP pra
\^_>:'C\p)P^
as '(k.vrt£.

• Opr
et3\
o \

^ CO^V^

v

\n

\

^Ct^ELeptvO,-VP

^fyd;. ^’dP-^
\

W£>u3

<$^\PrS-

-0

<«/

igi—Ji

' ov-TcP (pPAAePt.^-

»

•

:

r{

s'

f

l

~k j^m'.-VrsVJQi-'- \rs C d^Vg-Vevrcg- 'ey" da.r-ce r ^
'l

i

A

ydi hAp ; C

V'

?

, UA'k peg-

\A~~AArr^SlnVf" JA 9^1cc^^d)V^ €'yd) :

AqA;(Ji& "

»

VseiR. A ;Qj cS
vj

;

trortfl£j£? Afs-W
: • r\ • •

■».

.

(AA£A?$.\:

W&^rrKkl

I

3

•v
u
•-..

/

." ;-- '.V

•:

:• :-:

badgPSfc.. :

'i

•

. 1

K: v^.

: •«.

■/ ■:■:■

:....-

t\5rv; ■ ■

;

;
f,

i .•

*>••■- •

Vifix A fA" ' ■-

•V
•;.

l^vi

WTO

•u'

:• •
:' W-K

'my^PLC,

l v

f

V

UogAfcr^

. 4-

(lncnfnoOMfi\Afe vfey L> Vre j£'cv.\

' ~b "c^Ci lAlio

VWigllQ^
Vjfs

fi(Me1^
■ a

:

■

.ifftp.N <^5C.ood- ,cT Virt V\,<\q.cQ?< sJnoutrj

'Age.W iVO.rvvi VW.A i ■»\VV\ CX rr ^rovfa^- Aer^rfeh.
\

:

>

V

tjpNxtM.Q'CS ugft?s yco&iQSL

-

'r^fHxi

r.-:

..■

■;.

g\

•

■

■

-

?erJu^ ofc- c^Wt.- OnA ig *r^€0.
s
iw»S femt ^^fe:at^(a&vr)g;
m.
m
i fifes
reaves fy^PIsfeefeWr-1bat
• *i

*

*• •

■•.

k.

^

■

■

;...

\ )

:

■:

••a

A •<■/...•:

••

®fW
:

n4S

!.o

:

• \ ..
r

T ,

£i—

y-Q*m

;

r
'•;

\Msm
€ VToosss
I )(V^cifj^ fnj^on -fe
;

sK

sNi
”3n

.*
L-'-

.;.

•-.

;• •".

tv. r

? •

3

,S*S^

•'+0T-

(

/X

:'

^

lAfiVClVv Vv^c
U*
l
3 ^mi£bj - Aim
1

?

\ •
\A

/

4
3

•i
'

:!

■

4\
i- ?

£
Vr si

V

:

/"i

!

;

noa»

~-?&ii1J5ts£&5kE2S*

v

«

Cs
\CO.(lS CA^
-..

^OtrV:oJ

\
\

s

4(4/

vfv

:.

i

v •

4k-A4ft\jJ Q^Ci/l^bvm\te:

i

\
■ V

. .u
nrvm Wp^oYn/feW' r°in^
V-

:1.

'I

.■r./i:->:;/:C.-^Y:;p:C:Y:^

m

■ t- ' ''

\

L

...•-■.

-

■'■•

/-.A:-:

'.

■

■.;■■

■>

■•
.■:

"■ '

\ p

:

7: . . V:
J‘,; 5
.

•'•>■• .•

i

Aa 4>. Cv^5;; $U

v-

\:

/
:. v \ ■• ■-

\

-A

•;

' *"

^1As|^£lL2: '

CfrP7

’S^lK/Ofe

:;••
*.■

•••..

4at%jfe a nkw-

l >

.-• '■••

•\r

•

■ ;,o
v.'

CtefeY fify.

V6fci:Mr;

•"

•

■<.

•: A'. ,.

•

>*V

^$4

y'V'j: :

^4cvCfc)% JjtVtK

IvKf^p: :N'#44 ^0f4>:: (Vfoftft
.*.

4\ vn^

h

\

V

H \% \7fvkrt& v(\'Wf'V^
p6F7.atP^-'Vi^ frruAV gpfrfiV ft'C:■ 4-evfg^fQ
A^MxVA
\fe> Vi 0
5fl2~

:

I- ■

xfA &mj VL\; kGA WHU '

:

i: ■

;
i

:

o

Qyn nl VWoJ Mu*)- We 'Qg.gnftF-

!

u

V

Inm yfH McWgTvS -n \ &3-C ^-U-l

\-§Si \^.h&&--~^-.:\&^\ ':Mofc:' 4fgfcpg
i
(XuQ^-Vt^S
%

AuAotP ' o 'm\m \ '■ ^fQ-V
ur
\.
PA
A
v
Ata
vQflMlk
\
w.
w“
y- -!
Ai IjAk
=*
i

y

■m-A
/' • •

/

t

• cVtAfe^gj^
i

Cvrr nf)
« •

I

Ami-Ah-

vm

- ~ \f&T:mtS

-mm

-kAt: Vfff -r^VgrA 4Vp hjsyi- feMla v '•• *
■

!.

\

■

i.

\\ .

K

J

a VA
i\

vxMcA-&s g^derce: k<&. Xs!g-V.

0

v

Kd--*

*,...
;

/Tl

te£A; ANA Ay^rVAA--- - Wi&\ yyT ■ .Agp'v \^''4u&--t20EA w

V't4 •

A?-

. -jj.

h^lftuKfe.

"1
a

a-

-:•■»

^

\m W:

r ______

6um^
T

®

MiV»065iy dnd- Wv4Wrr '^gggss\pr QjMsei *■
ProQ Pet* CfiA tN^ Cnfinffianr -ftpr-RT rr>c.
<

I

IN THE COURT OF COMMON PLEAS OF BUTLER COUNTY,
PENNSYLVANIA
CRIMINAL DIVISION

COMMONWEALTH

CP-10-CR-0001714-2016
CP-10-CR-0000592-2018

vs
Hasan Shareff

ORDER OF COURT
AND NOW, this 1st day of November, 2018, the Court held a hearing on
Defendant’s Motion for Return of Property. The Commonwealth, as per the District
Attorney’s Office, did not appear as they informed the Court that they had no part of this
matter. No one from the Butler County Prison appeared and counsel for the Defendant
informed the Court that he had not notified anyone from the prison to appear.
Testimony was taken from the Defendant who indicated that when he was
transferred to the Butler County Prison from the Allegheny County Prison on August 20,
2018 his personal belongings including legal pads containing notes, random papers
containing notes, copies of orders and motions he had received from his attorneys as well
as a receipt from the Allegheny. County Prison regarding his jewelry was taken by
Captain Moore of the Butler County Prison, The Defendant indicated that in spite of his
requests these items were never returned to him. The Butler County Prison is directed to
respond to these allegations in writing within 30 days of the date of this order. If the
Court feels that an additional hearing is needed, the Courtwill schedule the sgne. 2

~)

y-",5

/

/

I2r o

o-

Timcahy F. McCune
Judge

m_

.>
aci

"O

nr

__ .. rn co —i.

3>
• y\

MCC
ICC

Sf :

DA£ty
De:
FileH^
Other

,9

■gcf'

i’.n

H .

